<html>
<title> - REVIEWING THE CIVIL NUCLEAR AGREEMENT IN SOUTH KOREA</title>
<body><pre>[Senate Hearing 114-811]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-811

          REVIEWING THE CIVIL NUCLEAR AGREEMENT IN SOUTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available via the World Wide Web: https://www.govinfo.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-924 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>              



                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Ben Cardin, U.S. Senator From Maryland......................     3
Hon. Thomas M. Countryman, Assistant Secretary, Bureau of 
  International Security and Nonproliferation, U.S. Department of 
  State, Washington, DC..........................................     4
    Prepared Statement...........................................     5

              Additional Material Submitted for the Record

Responses of Assistant Secretary Thomas M. Countryman to 
  Questions
  Submitted by Senator Marco Rubio...............................    18

                                 (iii)

  

 
          REVIEWING THE CIVIL NUCLEAR AGREEMENT IN SOUTH KOREA

                              ----------                              


                       THURSDAY, OCTOBER 1, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:48 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Flake, Perdue, Isakson, 
Barrasso, Cardin, Menendez, Shaheen, Coons, Udall, Murphy, and 
Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Today, and I am going to have a slightly 
longer opening statement. I apologize. There are technical 
facts that I would like to be out there. I want to thank 
everybody for being here.
    Today we are here to review our second civil nuclear 
cooperation agreement this year, the fourth in the Asia-Pacific 
region in the past 2 years. While we focus in on the agreement 
before us with South Korea, I would remind my colleagues that 
in the past 2 years we have also entered into agreements with 
Taiwan, Vietnam, and China. In reviewing this agreement, we 
must weigh the impacts of its contents on our global nuclear 
proliferation objective against the political and economic 
benefits of these arrangements.
    Each of the previously mentioned agreements has very 
different approaches to addressing the key nuclear 
proliferation concern--should the United States support the 
continued spread of fuel cycle technologies, namely enrichment 
and reprocessing capabilities? I do hope we will really think 
about the details of this today.
    South Korea is one of our closest allies in the Asia-
Pacific region, and our strong tradition of nuclear cooperation 
and collaboration remains an important element of our 
partnership. This is an issue that I have had the opportunity 
to discuss, and many of you have with President Park, both in 
Seoul and here in Washington. It is also important that we 
consider how this agreement could potentially impact U.S. 
strategic interests in the Asia-Pacific, particularly the 
security and stability of the Korean Peninsula.
    The agreement before us represents a continuation of the 
relationship that originally began in 1974 with the agreement 
between the United States and the Republic of Korea Concerning 
Peaceful Uses of Nuclear Energy. This agreement has already 
been extended once by Congress to accommodate a failure to 
agree on new terms and will now expire on March 19, 2016.
    Since that first agreement was reached in 1974, the 
dynamics on the Korean Peninsula have changed. In 1975, South 
Korea joined the NPT. In 1985, North Korea joined the NPT. In 
1986, U.S. intelligence became aware of an undeclared plutonium 
production reactor and reprocessing plant, and subsequently 
announced its intent to withdraw from the NPT in 2003. In 1992, 
the South and the North agreed to a joint declaration in which 
both parties agreed not to possess nuclear reprocessing and 
uranium enrichment capabilities. Since that time, North Korea 
has demonstrated a growing nuclear weapons capability, 
including both plutonium and uranium enrichment capacities.
    Given this unique security situation on the Korean 
Peninsula, I believe it is imperative that we closely examine 
the agreement before us, specifically how it addresses the 
issue of pyroprocessing. This agreement allows South Korea to 
operate the advanced spent fuel conditioning process facility, 
which is the first step in pyroprocessing. And it further 
provides the ability to enrich uranium up to 20 percent, though 
South Korea currently has no enrichment capability.
    Today I hope we will learn why this administration chose to 
include these capabilities in the agreement, and how they match 
up with our bilateral, regional, and global nonproliferation 
objectives. Perhaps our witness could also address how the 
approval of these technologies to South Korea, and, most 
recently, the acceptance of enrichment by Iran, will impact our 
ability to negotiate agreements with other partners, such as 
Saudi Arabia and Jordan, that would restrict E&R capabilities.
    I do understand the civil nuclear cooperation between the 
United States and South Korea has brought many economic 
benefits, including the sale of United States nuclear reactors, 
the transfer of United States reactor technology, and 
participation in South Korea's export of nuclear technologies, 
which has generated substantial income for the United States 
nuclear industry and grown thousands of jobs in the United 
States. And I know we will hear about these attributes from our 
witness. That said, and I have said this before, I am concerned 
that the current administration has taken an economics/industry 
first, national security second, approach to entering into 
these 123 agreements.
    In closing, the United States must lead with high standards 
that prevent the proliferation of technologies if we are to 
have a credible and effective nuclear proliferation policy. I 
have concerns that elements of this agreement miss that mark.
    I want to thank Tom Countryman for joining us today to 
review the components of this agreement, and look forward to 
working with him and his colleagues on this and future 123 
agreements. And I just want to say that Tom is someone we all 
respect, and I know he is working for the administration, and I 
know he is going to give good testimony on their behalf. But I 
have to say we continue to let the camel nose under the tent, 
and I think that we are sending very mixed signals about what 
our commitment really is to nuclear proliferation by the type 
of agreements that we are entering into.
    So with that, Senator Cardin, I look forward to your 
comments.

             OPENING STATEMENT OF HON. BEN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. Thank you 
for bringing us forward on this hearing, and, Secretary 
Countryman, it is nice to have you here again before our 
committee.
    As has been pointed out, we have had a long relationship 
with the Republic of Korea on nuclear issues that dates back 50 
years. The negotiation of this 123 agreement extension or new 
agreement has taken longer than we, I think, originally 
anticipated with a 2-year extension that was approved, and then 
now a 20-year agreement. Normally these are 30-year agreements, 
so obviously there were some tough negotiations that took place 
during this period of time.
    But I think we should underscore the very close 
relationship between the United States and the Republic of 
Korea in our interest to complete a 123 agreement. First and 
foremost, it is about the safety of the use of nuclear power. 
It is also about the economic advantages. The principal 
suppliers are going to be United States companies, and we are 
now working in partnership with the Republic of Korea and the 
United Arab Emirates, which is showing that we are gaining 
economic strength globally as a result of these 123 agreements. 
So I think for all those reasons, it is important that we move 
forward on a 123 agreement with Korea.
    This is certainly a broader relationship we have here. This 
is a country that we literally sacrificed on the battlefield in 
order to say it is a country that shares our values. It is a 
country that we work very closely with on the challenges we 
have on the Korean Peninsula with North Korea. So this is a 
country where we have a deep and enduring relationship.
    And, Mr. Chairman, let me say that tens of thousands of 
Korean Americans who live in my State of Maryland have helped 
foster that close relationship between our two countries. So 
there are a lot of reasons to move forward here.
    Also, I must say I am a supporter of nuclear power. I think 
nuclear power is critically important for our national security 
issues and for environmental issues. And here, this is another 
example of a responsible, predictable agreement that allows for 
the safe use of nuclear power by an ally in France. So for all 
those reasons, I think the 123 agreement is one that we should 
support.
    My own reading of this agreement is that it is a fair 
compromise that was struck to resolve the issue that you 
raised, which is that the United States and the Republic of 
Korea will continue to study the potential of power processing, 
which is a new type of technology for reprocessing spent 
nuclear fuels. Until the United States and Republic of Korea's 
joint study of this technology is completed, no decision will 
be reached about whether the Republic of Korea can move forward 
with this technology. And even after the study is finished, the 
ultimate authority for approving the reprocessing activities 
will rest with the Secretary of Energy.
    This agreement will allow us to continue to deepen our 
cooperation with the Republic of Korea, which is particularly 
important as we work together on the region's energy future, 
climate change, and on a closer United States-Korea alliance. 
This agreement reflects the partnership and the enduring bonds 
between our two nations, and I urge us to support this 
agreement.
    Obviously there is a process for review. I have introduced 
legislation to support it, and I hope Congress will continue to 
show our support for the relationship between the United States 
and the Republic of Korea.
    The Chairman. Thank you, Senator Cardin. We will now turn 
to our witness. Joining us to provide testimony today is the 
Honorable Thomas M. Countryman. He currently serves as the 
Assistant Secretary of State for International Security and 
Nonproliferation. In this capacity, Mr. Countryman leads the 
Bureau at the head of the U.S. effort to prevent the spread of 
nuclear, chemical, and biological weapons, their related 
materials, and their delivery systems.
    I want to thank you for being here to share your thoughts 
and viewpoints. I know you understand we would love to hear 
your verbal points in five minutes, so if you have any other 
materials, without objection, they will be entered into the 
record.
    And with that, we would like to recognize you and thank you 
for your service to our country.

 STATEMENT OF HON. THOMAS M. COUNTRYMAN, ASSISTANT SECRETARY, 
  BUREAU OF INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Countryman. Thank you, Mr. Chairman. Mr. Chairman and 
Ranking Member Cardin, I value your kind words to me, and I 
value just as much your tough questions. I have submitted a 
witness statement, but orally today I would say that it is a 
pleasure to testify on the President's submission of an 
agreement for peaceful nuclear cooperation between the United 
States and the Republic of Korea.
    The ROK is a key ally in East Asia, as you have noted, and 
this agreement is an example of the increasing strength of our 
bilateral relationship. It will enhance the strategic 
partnership between the United States and South Korea across 
the spectrum of political, economic, energy, science, and 
technology issues. It is in the best interests of the United 
States to continue our nuclear cooperation with South Korea.
    I thank this committee as well as your colleagues in the 
House Foreign Affairs Committee for your leadership and support 
in extending the prior 123 agreement for a period of 2 years 
until 2016. This extension gave us the extra time and space we 
needed to work with our partners to achieve a balanced text 
that satisfies the needs of both countries.
    As usual, we have briefed members and staff extensively on 
this agreement, but I will recount a few high points. As with 
all our 123 agreements, this agreement is first and foremost an 
asset to advance U.S. nonproliferation policy. It contains all 
of the nonproliferation guarantees required by the Atomic 
Energy Act. It includes conditions related to IAEA safeguards, 
peaceful use assurance, physical protection assurance, and U.S. 
consent rights on storage, retransfer, enrichment, and 
reprocessing of the U.S. obligated nuclear material.
    It allows for the continuation and the expansion of our 
robust and mutually beneficial trade relationship. It 
establishes a new standing high-level bilateral commission for 
our two governments to work together to advance nuclear 
cooperation. The Commission's working groups will focus on 
spent fuel management, assured fuel supply, nuclear security--I 
am a little stunned, sir.
    This agreement establishes U.S. consent rights on any 
future possible enrichment or reprocessing of U.S.-obligated 
nuclear material, but it also contains a set of pathways toward 
a possible U.S. Government decision in the future on whether to 
grant consent to the ROK to enrich or reprocess U.S.-obligated 
nuclear material.
    The ROK is one of the strongest partners of the United 
States, has consistently displayed a commitment to nuclear 
nonproliferation. It is a leader in the four multilateral 
export control regimes in the Global Nuclear Security Summit 
process, and, of course, a strong ally in addressing the threat 
posed by North Korea's nuclear and missile programs.
    In short, this agreement is one of the most sophisticated 
and dynamic, peaceful nuclear cooperation agreements we have 
ever negotiated. When it enters into force, it will provide a 
strong foundation for our shared peaceful nuclear cooperation 
and our non-proliferation objectives for years to come.
    Thank you.
    [The prepared statement of Mr. Countryman follows:]

     Prepared Statement of Assistant Secretary Thomas M. Countryman

    Mr. Chairman and Ranking Member, good afternoon. It is a pleasure 
to testify before the committee today regarding the President's 
submission of an Agreement for Peaceful Nuclear Cooperation between the 
United States and the Republic of Korea. As you know, the ROK is a key 
ally of the United States in East Asia, and this Agreement is an 
example of the increasing strength of our bilateral relationship. The 
Agreement will enhance the strategic relationship between the United 
States and the ROK across the spectrum of political, economic, energy, 
science, and technology issues. The United States and the ROK have had 
a strong partnership in the field of peaceful nuclear cooperation for 
more than half a century, and the United States is pleased that the ROK 
has become one of the world's leading nations in the development of 
peaceful uses of nuclear energy. The terms of the new U.S.-ROK 123 
Agreement strongly reaffirm the two governments' shared commitment to 
nonproliferation as the cornerstone of our nuclear cooperation 
relationship.
    The ROK has a strong track record on and has consistently 
reiterated its commitment to nonproliferation. It has been an extremely 
active partner with the United States across a wide breadth of 
bilateral and multilateral activities designed to ensure the 
implementation of the highest standards of safety, security, and 
nonproliferation worldwide. I would like to explain why the 
administration believes it is in the best interests of the United 
States to continue our nuclear cooperation with the ROK.
                        description of agreement
    I would like to begin by thanking this committee as well as our 
colleagues in the House Foreign Affairs Committee for your leadership 
and support in extending the prior 123 Agreement with the ROK for a 
period of 2 years until 2016. The authority to extend the agreement 
that you provided gave us the extra time we needed to work together 
with our ROK partners to achieve a balanced text that satisfies the 
needs of both governments.
    As with all our 123 agreements, this Agreement is first and 
foremost an asset that advances U.S. nonproliferation policy 
objectives. The President's transmittal of the Agreement, and the 
Nuclear Proliferation Assessment Statement that accompanied it, include 
a detailed description of the contents of the Agreement so I will not 
repeat that here, but the Agreement contains all the U.S. 
nonproliferation guaranties required by the Atomic Energy Act and 
common to 123 agreements, including conditions related to International 
Atomic Energy Agency (IAEA) safeguards, peaceful uses assurances, 
physical protection assurances, and U.S. consent rights on storage, 
retransfer, enrichment, and reprocessing of U.S.-obligated nuclear 
material. It also has an initial duration of 20 years with one 
automatic 5-year extension.
    A unique feature of the Agreement is the establishment of a new 
standing, High-Level Bilateral Commission for our two governments to 
work together to advance mutual nuclear cooperation objectives. The 
Commission will be led on our side by the Deputy Secretary of Energy 
and on the ROK side by a Vice Minister of Foreign Affairs. As described 
in the text of the Agreement, the Commission will consist of four 
working groups, one on spent fuel management, one on assuring a stable 
fuel supply globally, a third on nuclear security, and finally a 
working group to address the promotion of exports and export control 
cooperation. This new Commission will allow for more regular 
interaction between our two governments on the state of nuclear energy 
in both countries. We expect these interactions to both deepen our 
bilateral nuclear cooperation relationship politically and to make 
further progress in tackling some of our shared challenges facing the 
future of the civil nuclear energy industry.
    As you know, the United States and the ROK agreed to commence a 10-
year Joint Fuel Cycle Study in 2011 to explore strategies to address 
shared challenges. The Study is exploring the technical and economic 
feasibility and the nonproliferation acceptability of pyroprocessing 
and of other spent fuel management options. U.S. and ROK technical 
experts are working together to advance technical cooperation on the 
storage, transportation, and disposal of spent nuclear fuel, and we 
expect the results of the Joint Study to inform the work of the High 
Level Bilateral Commission going forward. In addition to the 
cooperation to occur under the High Level Bilateral Commission and in 
the Joint Fuel Cycle Study, the Agreement also identifies other areas 
for future research and development collaboration, including nuclear 
safety, safeguards, radioactive waste management, and the development, 
construction, and operation of reactors.
    As highlighted earlier, the Agreement clearly establishes U.S. 
consent rights on any future possible enrichment or reprocessing of 
U.S. obligated nuclear material. That said, it also contains a set of 
pathways toward possible U.S. Government decisions in the future on 
whether to grant advance consent to the ROK to enrich or reprocess U.S. 
obligated nuclear material. Through the High Level Bilateral 
Commission, U.S. and ROK officials will evaluate the technical 
feasibility, economic viability, safeguardability, and nonproliferation 
acceptability of potential reprocessing techniques and enrichment 
options. Any advance consent would require satisfactory outcomes from 
those studies and subsequent written agreement between the parties. The 
Secretary of Energy would have the final authority to decide whether or 
not granting advance consent would significantly increase the risk of 
proliferation.
                   rok as a nonproliferation partner
    The ROK is one of the United States strongest partners on and has 
consistently displayed its commitment to nuclear nonproliferation. It 
is a member of the four multilateral nonproliferation regimes--the 
Missile Technology Control Regime, Wassenaar Arrangement, Australia 
Group, and Nuclear Suppliers Group. The ROK served as the Chair of the 
Nuclear Suppliers Group in 2003-2004, and is scheduled to do so again 
in 2016-017. The ROK also recently completed its term as Chair of the 
Hague Code of Conduct Against Ballistic Missile Proliferation. The ROK 
became a State Party to the Treaty on the Non-Proliferation of Nuclear 
Weapons on April 23, 1975, and has in force a comprehensive safeguards 
agreement and Additional Protocol with the International Atomic Energy 
Agency (IAEA).
    The ROK has also demonstrated its commitment to nuclear security 
and addressing the threat of nuclear terrorism, including through 
hosting the 2012 Nuclear Security Summit and providing useful 
contributions to the development of a high-density low enriched uranium 
fuel. It has also been an active and positive contributor to the summit 
process since its inception, as well as through its support for the 
Global Initiative to Combat Nuclear Terrorism and Global Partnership 
Against the Spread of Weapons and Materials of Mass Destruction. The 
ROK has ratified key nuclear conventions, including the International 
Convention for the Suppression of Acts of Nuclear Terrorism and the 
Amendment to the Convention on the Physical Protection of Nuclear 
Material. The ROK has been an active participant in the Proliferation 
Security Initiative (PSI) since 2009, having hosted regional and global 
meetings and two operational exercises. It has also conducted outreach 
to states that have not yet endorsed PSI. The ROK has been a consistent 
advocate of nonproliferation in the IAEA Board of Governors, including 
support for strengthening safeguards in a variety of contexts.
    The ROK Foreign Minister has offered to chair the IAEA's 2016 
Nuclear Security Conference. The ROK has also been a strong and close 
partner in addressing the threat posed by the Democratic People's 
Republic of Korea's (DPRK) nuclear and missile programs, including at 
the IAEA where it has joined the United States in addressing the DPRK's 
growing nuclear threat and holding the DPRK to its denuclearization 
commitments and obligations, and advocating for a continued strong role 
for the IAEA in the complete, verifiable, and irreversible 
denuclearization of the Korean Peninsula.
                    economic and political benefits
    In addition to the many nonproliferation benefits of continuing our 
nuclear cooperation with the ROK, the agreement allows for the 
continuation and expansion of our robust and mutually beneficial trade 
relationship. For example, the United States provides fuel supply 
services to the ROK, and the ROK supplies the United States with 
significant reactor components such as pressure vessels. Due to this 
trade relationship, the 2009 contract between the ROK and the United 
Arab Emirates to build four reactors has already brought hundreds of 
new jobs and approximately $2 billion in additional revenue to U.S. 
nuclear suppliers, and the Agreement would allow this type of 
cooperation to continue and flourish in the future.
    The ROK nuclear program owes much to the United States but has now 
emerged as a world leader in nuclear energy, nuclear nonproliferation, 
and nuclear security. The U.S.-ROK partnership in nuclear energy is 
emblematic of our broader partnership and a great asset in our own 
efforts in these areas.
                               conclusion
    In sum, we believe the nonproliferation and economic benefits of 
this agreement demonstrate that continuing nuclear cooperation with the 
ROK is in the best interests of the United States. The Agreement is one 
of the most sophisticated and dynamic peaceful nuclear cooperation 
agreements we have ever negotiated, which speaks to the state-of-the-
art nature of the ROK's peaceful nuclear program and the many 
characteristics that our two nuclear programs share in common. Once it 
enters into force, this Agreement will be a significant achievement for 
both our governments and provide a strong foundation for our shared 
peaceful nuclear cooperation and nonproliferation objectives for 
decades to come.
    Mr. Chairman and Ranking Member, thank you.

    Senator Cardin [presiding]. Thank you very much for your 
testimony. Senator Perdue, I am prepared to yield if you have 
questions that you would like to ask.
    Senator Perdue. I just have one very quickly, but I 
appreciate that. Thank you, Mr. Secretary, for being here 
again. I am very concerned about what we have just done with 
Iran. I know that the ranking member is as well. We are moving 
forward. Now we have this negotiation with a great ally, and I 
appreciate your efforts there.
    I would just like to pursue the need for South Korea's 
desire to enrich. I mean, it is just that simple. I know we 
have got this study group. We are going to be looking at this, 
and I applaud that, but I am very concerned. Let me put that in 
perspective for the record.
    As we looked at this in the Iran negotiation or 
conversation, there are about 190 NPT countries today, nine of 
which--well, not all of these are in the NPT. There are five 
countries in NPT that today have a nuclear weapon. There are 
four--North Korea, Israel, Pakistan, and India--that are non-
NPT, but do have weapons. There are five countries, and now six 
including Iran, that have civil nuclear programs and are 
allowed to enrichment under NPT: Germany, Holland, Japan, 
Brazil, and Argentina. And then there are 18 countries, of 
which South Korea is a member, that have civil programs that 
are not allowed to enrichment.
    So the question is: Under what circumstances does it make 
sense for us to start looking at these 18 countries and others, 
as the example of Iran, to start enrichment? The supply chain I 
know was mentioned by the Iranians and so forth, which I find 
to be fairly hollow. It seems to me that this is a first step, 
and this barrier for decades has been very effective in 
preventing uncontrolled proliferation.
    So could you give us your comments for the record on that?
    Mr. Countryman. Yes, several points. First, when you talk 
about states allowed or not allowed to enrich, it is not under 
the NPT. The Non-Proliferation Treaty does not grant or deny 
states the right to--the so-called right to enrich.
    Senator Perdue. Thank you. I misspoke. Thank you.
    Mr. Countryman. But under U.S. agreements, there are a 
limited number of states who developed independently of U.S. 
technology a capability to enrichment and/or reprocess. And the 
recognition of that indigenous capability is contained in a 
number of our 123 agreements. The Iran agreement, of course, 
does not provide a right to enrichment, and, most importantly, 
it is not a 123 agreement. It does not allow for civil nuclear 
cooperation between the United States and Iran.
    Overall, what I would say about enrichment specifically is 
that the market works. There is a surplus of enrichment 
capacity in the world for those states who wish to develop 
nuclear power. They can purchase the fuel they need on the 
global market. That is what was always economically ludicrous 
about Iran's claim that it needed to develop this capacity. In 
the case of the Republic of Korea, we have agreed that this is 
a topic we will discuss in the future.
    I think it is premature to talk about an ROK desire to 
enrichment, but it is accurate to talk about an ROK desire to 
keep that option open. And that is what we have agreed to do in 
this case.
    Senator Perdue. Thank you, Mr. Secretary. Thank you, Mr. 
Ranking Member.
    Senator Cardin. Let me--I want to follow up on this a bit 
because it is unusual, rare, that we give advanced permission 
to reprocess in a civil nuclear agreement that has only been 
granted to countries that have already had that technology, as 
I understand it, such as India, Japan, and Western Europe. So 
why are we considering it here for the first time in this 
region? Knowing the Korean Peninsula's sensitivity, why are we 
including it in this agreement or the options in this 
agreement?
    Mr. Countryman. The very shortest answer is because the ROK 
asked to keep that question open for a future decision based on 
a variety of issues that we will study together that include 
technical, economic, of course nonproliferation policy, 
security issues, and feasibility. And so, we have agreed that 
the consent decision will not be granted in this agreement. 
This is not advanced consent, but a consent decision on U.S.-
obligated material will be made at a later time.
    Senator Cardin. Now, the next question I am going to ask 
you, I am a little bit suspect to ask you this question. But in 
the 1992 Joint Declaration in which North and South Korea 
agreed that they would not possess nuclear reprocessing or 
uranium enrichment facilities--knowing the activity in North 
Korea, it is hard for me to ask you this question. But does the 
development of pyroprocessing violate the 1992 Joint 
Declaration?
    Mr. Countryman. Our current agreement for joint research 
with the Republic of Korea on certain aspects of pyroprocessing 
does not violate that agreement. It is technical research at 
this point. The technology and the knowledge that we have 
shared with the ROK is strictly limited by a bilateral 
agreement. So where we are now is not in any way in violation 
of the Joint Declaration.
    Senator Cardin. But could it--if it goes to its logical 
conclusion that the Republic of Korea is seeking, could it 
violate the 1992 Joint Declaration?
    Mr. Countryman. First, I am not aware. The ROK has not said 
that they are seeking to build a commercial-scale 
pyroprocessing plant in the ROK. At that point, we would have 
some hard decisions to make. But building pyroprocessing with 
huge economic costs involved as compared to what are today far 
lower costs for spent fuel storage by other methods, that is 
not the only logical outcome of this discussion.
    Senator Cardin. So, could you share with this committee the 
challenges you had in completing this 123? We needed a 2-year 
extension. It is a 20-year agreement where we normally look 
today at a 30-year agreement. Can you share with us the thought 
as to why it took longer than, or, at least initially, 
anticipated, and why you are entering into a 20-year agreement 
where normally it would have been a longer agreement?
    Mr. Countryman. Again, the short answer for why it took a 
long time, the Republic of Korea, our South Korean friends, are 
good allies and tough negotiators, and we spent a lot of time 
going over each sentence in here. They have concerns, perhaps 
greater on their side than on our side, about how it is 
perceived politically back in their capital.
    And so, we took the extra time to ensure that this 
technical agreement where we are in agreement on just about 
everything does not become a political football in either 
capital. And I think we succeeded well in that.
    The 20-year agreement with an automatic 5-year extension 
was at the suggestion of the Republic of Korea, and as we 
previously discussed with this committee, there is a preference 
here to have an upper limit of 30 years for 123 agreements. So 
we had no objection to a 20+5 arrangement.
    Senator Cardin. Well, you are right about that. I think we 
do want a limit on the 123s. It was just strange that they 
would not want a longer agreement. Is there an advantage to the 
Republic of Korea making this be able to kick out after 20 
years? What is their thinking there?
    Mr. Countryman. Well, I think, and here it is better to ask 
them. But what I would say is they point to the rapid pace of 
technological change, and it is possible that there will be 
significant developments in nuclear technology in the next 20 
years. At the same time, I think this same agreement will serve 
us well for 20, 25 years or longer because it has the 
flexibility to accommodate those kinds of changes in 
technology, specifically through creation of this high-level 
bilateral commission.
    Senator Cardin. Last question, if I might, getting back to 
the first point, and what the chairman I am sure is going to be 
talking about, the enrichment on the Korean Peninsula in the 
Republic of Korea. Under this agreement, South Korea is 
permitted to undertake the first stage of pyroprocessing, which 
is, again, a new type of technology. What do you see is the 
ultimate objective of Korea under this agreement as it relates 
to either reprocessing or enrichment? I understand they want to 
reserve their rights, et cetera, et cetera. Where should we 
anticipate we are likely to be?
    Mr. Countryman. Well, that is speculative, so I will give 
only a very general answer. I think the intention of the 
Republic of Korea is, number one, to improve their energy 
independence through the use of nuclear power for electricity; 
second, to be as competitive in the international market for 
reactor technology as they are in a number of other high-tech 
fields; and third, to make economically rational decisions 
about the best way to achieve those goals.
    We do not have a prejudgment from either side about the 
economic viability of enrichment or reprocessing, particularly 
when, as I said, the world enrichment market is in surplus 
right now.
    Senator Cardin. Thank you.
    Mr. Countryman. But I think that is how I would describe 
their goals.
    The Chairman [presiding]. Thank you. I think you have a 
tough job, and we thank you for the way you deal with each of 
us, even though sometimes we disagree with the outcome.
    I would just add we have an outstanding working 
relationship. I would add to--if I were answering the question 
that, look, we have all spent time with President Park. She is 
a tough negotiator. She is a very focused person. I understand 
all that. My sense is, though, it also has to do with the fact 
that we have agreed to let Japan do the same thing. And I am 
sorry, there is just a syndrome that comes with that.
    There are issues obviously between South Korea and Japan. 
We are, you know, allowing China to do the same thing. And, in 
essence, I fear that our policy--you know, the old gold 
standard is basically thrown by the wayside--and it is now, you 
know, because others have it, we want it. And I hope you will 
not deny that that was part of the desire, if you will, on 
behalf of South Korea to be able to do this. It is as if they 
are being treated less well, if you will, if we did not allow 
them to do this.
    Mr. Countryman. Yes, sir; a couple of points. First, as I 
mentioned, in this negotiation or in any similar negotiation, I 
think both teams come to the table with a consciousness of how 
they will explain the final agreement to legislators and to the 
public back home, and it will be perceived regardless of the 
explanation. And so, I would say that in the case of the 
Republic of Korea, we had a consciousness that there is a 
possibility of that kind of political comparison to Japan being 
made when it is reviewed back home.
    But I can say it was not in any way an explicit part of the 
negotiation. It was not a demand pressed by the Republic of 
Korea in this case. Rather, we both agreed that we had to find 
something that demonstrated how strong our bilateral nuclear 
cooperation is, and I think we have done that.
    The Chairman. Well, on that same line of discussion, then 
you would agree with me as we continue to throw the gold 
standard by the wayside, as we continue to allow people to 
reprocess and enrich, as we continue to go down this path, go 
down this path, go down this path, that that consciousness will 
continue to be an issue with others that we talk about or 
negotiate with because they also will be saying, well, my 
friend in the region has this capability, so, therefore, I 
must, too, or the people back home will view that I am a weak 
negotiator. So we are going to continue with this syndrome, are 
we not?
    Mr. Countryman. I cannot quite agree. First, I can agree 
that I have never liked the word ``gold standard.'' I 
understand it was coined by a colleague of mine in the State 
Department, but I think it is an inaccurate description of our 
policy. And especially when I recall what the gold standard did 
to the world economy in the 1920s, I think it is a bad metaphor 
to use.
    The Chairman. Well, for people viewing this particular 
hearing, let me just say there is no relevance whatsoever to 
the two gold standards. [Laughter.]
    The Chairman. So go ahead. Okay.
    Mr. Countryman. Thank you, sir. As we discussed in depth at 
a hearing in January of last year, our policy is not to insist 
on a one-size-fits-all standard for every country.
    The Chairman. Okay. So, just, look, we have got to--just if 
you would, as we continue--forget the gold standard.
    Mr. Countryman. Okay.
    The Chairman. As we continue--we have--obviously the gold 
standard is not operational anymore, although we might want to 
do some things to attempt to change that, especially with all 
that is occurring in this regard. But is it fair to say that as 
we continue to allow other countries the ability to enrich and 
reprocess, that as that expands out, and it is expanding out 
geometrically under this administration--geometrically, even 
with state sponsors of terror, Iran as we continue to do that, 
is it not true that when you sit down and negotiate with 
people, the consciousness is going to be that they are going to 
look weak if we allow a state sponsor of terror to enrich while 
they are a good actor, if we allow the Republic of Korea to 
move down this path when we have stated that the peninsula will 
not have that kind of activity.
    Again, nothing against President Park or South Korea, but 
this continues to feed the same problem as we move around the 
world, does it not?
    Mr. Countryman. Senator, I am never happy to disagree with 
you, but I do have to contest the premise of the question.
    The Chairman. You are a good soldier.
    Mr. Countryman. Well, it is what I believe, sir.
    The Chairman. Yes.
    Mr. Countryman. Under this administration, the enrichment 
and reprocessing technology has not spread. There are no 
countries enriching and reprocessing today that were not doing 
it 8 years ago. And the one country that advanced in recent 
years in its enrichment capability, Iran, which expanded 
dramatically its enrichment capability since 2000 is now 
constrained.
    So far from being a geometrical spread of such 
technologies, under this administration there has been a 
constriction of those capabilities.
    The Chairman. Let me just walk down a series of 
questioning, and, I mean, I just look at the most recent 
agreements we have entered into. In every case, we have 
expanded those countries' abilities in the 123 agreements we 
have come to. I am sorry, that is at the start opposition to 
what you just said. This agreement does the same thing.
    Let me just walk you down a list of questioning, and my 
temperature is rising slightly--I feel like, you know, and I am 
sorry. The agreements we have entered into on the 123 side, I 
am sorry, are not consistent with what you just said. They are 
not consistent. This agreement is not consistent with what you 
just said, and I am disappointed that you would cause people to 
think that that is the case.
    So let me just walk down a line of questioning. Is it the 
United States policy that South Korea should not pursue or 
develop reprocessing capabilities? Is that our policy? I want 
to make sure we communicate that real clearly today to the 
President of South Korea.
    Mr. Countryman. That is a policy decision that should be 
taken later, taken into account a number of issues that we have 
agreed to study together.
    The Chairman. And I want to bypass some of the--I want to 
come back to that question. What we are really doing is we are 
putting the next person that you have punted this decision to 
in a very awkward position because what you are doing is you 
are leaving them with a bread trail toward reprocessing. You 
are allowing them to invest--you are causing them by your 
affirmation of this agreement to invest a lot of money in that 
direction.
    So the next executive, the next person in your position, is 
going to be in the bad position of feeling like we have dealt 
in bad faith. We have been dealing in bad faith with South 
Korea if we do not allow them to continue down that path. That 
is what you all have set up in this process. You know that is 
what we have set up in this process, and that is why you said 
that someone else down the road will have to make that 
decision.
    Why is that the United States--why did the United States 
agree to cooperate with South Korea on pyroprocessing, 
research, and projects?
    Mr. Countryman. Because our option was to cooperate with 
them or to have them do it alone, and we think it is smarter to 
have insight and cooperation on what they are doing and to be 
able to reach common conclusions about the physical, technical, 
and economic viability of pyroprocessing.
    The Chairman. This agreement will allow South Korea to 
operate the advanced spent fuel conditioning process facility, 
which is the first step in pyroprocessing. Is this, as I said 
earlier, not setting the expectation that the United States 
will ultimately agree to allowing the use of this technology 
with U.S.-obligated material?
    Mr. Countryman. It may create that expectation for some, 
but we could not have been more clear in all the negotiations 
and in all statements surrounding this agreement that a future 
decision is not prejudged.
    The Chairman. So you do not think President Park right now 
believes that we have given a wink and a nod by granting that 
down the road they are going to be able to take further steps. 
And, again, you are looking at somebody who has a lot of faith 
in you.
    Mr. Countryman. I do not know what President Park believes, 
but I do not believe--I do not see a basis for her to conclude 
that this is a wink and a nod rather than what it actually is, 
black on white. This is----
    The Chairman. Do you believe that she believes this is 
taking her down the path and the country to a place where it is 
going to be very difficult for the next administration to deny 
the next steps that she and her country would like to take, 
again, our friends?
    Mr. Countryman. If she believes that, she has been badly 
briefed about what we have said.
    The Chairman. Under today's circumstances, would the United 
States negotiate an agreement with any country that provided 
advanced programmatic consent to the pyroprocessing spent fuel 
should the technology be found viable?
    Mr. Countryman. I am sorry, one more time, please?
    The Chairman. Under today's circumstances, would the United 
States negotiate an agreement with any country that provided 
advanced programmatic consent to pyroprocessed spent fuel 
should the technology be found viable?
    Mr. Countryman. That is an interesting question. The 
technology has not yet been proven viable. It may be 
technically viable, but economically and in terms of safeguards 
and security is a different question. Let me take that 
question. I mean, we negotiated with the ROK as one of our 
closest partners and as the country most interested in pursuing 
this technology. It is what scientists and engineers do is they 
go down interesting pathways.
    How to apply that to another country, I would have to think 
about, but it is not an issue that has come up.
    The Chairman. Why did the administration agree to language 
allowing for the enrichment of uranium up to 20 percent when 
South Korea currently has no enrichment capability? Why did we 
do that?
    Mr. Countryman. Again, we did not agree. We agreed that 
this is an issue that if the ROK makes a decision in the future 
that it wishes to pursue enrichment using U.S-obligated 
material, we will make a decision on that in the future.
    The Chairman. And, Tom, I am going to close out. I know 
Chris Murphy is here and wants to ask some questions. I am sure 
Jim Risch maybe. I do not think you can look at me with a 
straight face in this hearing and say that the way this 
agreement is written, the words, would not give some indication 
to people in South Korea that we have begun the green light 
toward additional activities. I do not think you could say that 
to me. If I am a legislator, if I am a constituent, and I read 
the agreement that we have before us, I just do not think you 
can tell me that it does not give some indication that down the 
road there will be additional doors opened.
    Mr. Countryman. I have been around capitals long enough to 
know that there are people who will read it in a number of 
different ways. But I agree 100 percent with what Senator 
Cardin said that this is a reasonable compromise on an issue in 
which we entered into the negotiations with differing 
positions, and I think our statements have been clear enough.
    Yes, some people will take encouragement about a decision 
that will be taken many years from now by officials different 
from the ones who are now in these jobs.
    The Chairman. Okay.
    Mr. Countryman. But there is no promise.
    The Chairman. Yes, and I will just say again, I will hang 
with my comment that the fact is that this administration 
continues to open doors to enrichment, toward reprocessing, 
continues to make it more and more difficult for others who 
really look at nonproliferation as an important issue.
    As you continue to let the camel nose under the tent, as 
you continue to let countries expand their reprocessing and 
enrichment capabilities, it makes it even more difficult, as 
was the case in this particular agreement, it makes even more 
difficult for us to really focus on nonproliferation in the 
ways that we set out in the very beginning. So that is a fact.
    That is why there were differences here. And that is why we 
find ourselves in a situation where I stand by before that 
these agreements that have been negotiated under this 
administration have done more to open the door toward these 
types of activities than I ever would have anticipated based on 
the kind of declarations that this President and others have 
made about nonproliferation. And I think it shows that we are 
not committed, that, in essence, national security is secondary 
to the economic benefits that come to some.
    So with that, Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I 
apologize for missing the substance of this, but I have been 
following the issue, and I thank you for the work you have 
done. I think I share some of the sentiments that Senator 
Cardin has expressed regarding what is a hard-fought and hard-
won compromise, but a compromise first, second, and third.
    I guess you may have covered this a little bit in your 
opening remarks, but this is in general is a much more 
complicated relationship between the United States and South 
Korea than it has been the past. We have less influence on 
North Korea via the Chinese, less of a conduit into 
understanding and trying to influence their actions at the 
borders, obviously increased military tensions. We have a new 
trade agreement that many in the United States are unhappy 
with. There are complicated enforcement mechanisms in it.
    You know, I know you do not, you know, have the portfolio 
of overseeing the totality of the relationship, the commission 
set up within this certainly recognizes the context of the 
broader relationship and how this fits in. Can you just talk 
about sort of how this agreement sits within the broader 
bilateral relationship and its importance in terms of 
continuing to move our very important economic partnership 
developed after the trade agreement and the security 
partnership outside of nuclear cooperation?
    Mr. Countryman. Yes, sir. Maybe the best way I can do that 
is to speak explicitly to our nuclear bilateral relationship 
because I think it parallels the developments that you have 
spoken about. When we signed the first 123 agreement with the 
ROK in 1974, it was a reflection of a one-way street; that is, 
the United States was selling nuclear technology and equipment 
to the Republic of Korea so that they could start building 
electric power generation.
    Today it is absolutely a reciprocal, mutually beneficial 
agreement. It is not a one-way street. It is definitely a two-
way exchange of the best technology, of the best capabilities 
of competitive in the global marketplace for other countries 
that may want to buy nuclear power. And the negotiation and the 
terms of this agreement reflect that this is a partnership of 
equals, at least in this domain.
    And I think you can extrapolate that also in a number of 
ways to what we are doing together on the economic and the 
security and the diplomatic side as well. I hope that is useful 
to you.
    Senator Murphy. I think we can speak in Connecticut to the 
importance of the energy relationship that extends well beyond 
nuclear power. Korea is the top buyer of fuel cell technology 
in the world from United States companies. Much of it comes 
from one company in Connecticut that has created hundreds of 
jobs based on a very close relationship between the United 
States fuel cell industry and the Korean fuel cell industry. It 
is mutually beneficial in that industry as it in the nuclear 
industry as well.
    Thank you, Mr. Chairman.
    The Chairman. Are there any other questions? With that, we 
thank you. I am sure we are going to be following up with other 
questions. And as a matter of fact, subject to Senator Cardin's 
approval, the record will remain open until close of business 
tomorrow. I know as usual you will promptly respond to those 
questions.
    Senator Markey apparently is rushing in. [Laughter.]
    The Chairman. A great friend of nuclear proliferation, so I 
am sure that----
    [Laughter.]
    The Chairman [continuing]. He will cherish this agreement 
that has been put in place. With that, Senator Markey.
    Senator Markey. Okay. Thank you, and, Mr. Countryman, it is 
so good to see you again. I thank you for holding this hearing, 
and I apologize to you, Mr. Chairman, it is a very important 
hearing. There is a very real and dangerous risk inherent in 
international transfer of nuclear technologies. We last 
addressed our shared concern on these risks in May during the 
hearing on the China 123 agreement.
    As I said then, we should not leave doors open for our 
partners to use U.S. technology to process spent nuclear fuel 
in ways that produce materials that can be used as the building 
blocks for nuclear weapons.
    Our agreements with partners need to preserve a meaningful 
U.S. role in such decisions. We have issues that, of course, 
are of concern even in this agreement because it leaves the 
door open to process something called pyroprocessing, which 
South Korea may begin doing as early as 2021 after completion 
of a study of its viability and proliferation risk.
    In 1996, I led a bipartisan group in the House opposed to 
pyroprocessing in the United States because it would not have 
been cost-effective, would have increased proliferation risk, 
giving a bad example to other countries. At the time, I called 
pyroprocessing bad for American efforts to stop the spread of 
nuclear weapons. We were successful back then. It is just a 
very expensive way--pyroprocessing--of burning money, American 
taxpayer money. It was an absolutely crazy idea.
    And so, we cannot allow these weapons usable materials, to 
be separated from spent nuclear fuel. It is very dangerous. 
Unfortunately, what we are potentially creating here is an open 
door to increased production of weapons usable material even by 
trusted partners, which can have unintended consequences, 
especially in regions prone to instability.
    East Asia's regional politics are beset by rivalries over 
territorial claims and national aspirations, and aggravated by 
lingering antagonism from World War II. It is all still there. 
Compounding concerns raised by the China agreement is Japan's 
intent to begin spent fuel reprocessing itself. Next spring it 
is expected to lead to a substantial increase in its already 
large quantity of weapons-grade plutonium.
    Secretary Countryman, if Japan goes forward with its plans 
and the region believes that we are on track to help South 
Korea begin pyroprocessing starting in the 2020s, I just think 
that it is highly likely that China ultimately could help us 
maybe in playing a role if we could get together about its 
decisions on reprocessing, or else what we are going to have is 
just an ever-escalating upward spiral of interest in this issue 
that ultimately is going to create a real tragedy for us.
    So what I say to you, Mr. Secretary, when you are visiting 
these countries, when you are talking to these people in these 
countries, you have to deliver a message. This is dangerous 
stuff we are playing with. This is dangerous stuff that 
ultimately could come back in 15 or 20 years and create even 
more dangerous situations than Iran is today. Could you talk to 
us about that and what you would say would be a good message 
for these countries from the United States as a Cassandra-like 
mourning?
    Mr. Countryman. Yes, sir. Two comments on earlier 
statements by you, and then a direct answer. First, I do not 
agree that we have opened the door to pyroprocessing. We have 
just had this discussion. We have agreed to postpone a decision 
on that until the joint fuel cycle study is completed. The 
second comment is that the points you raised in 1996 and again 
today about high expense and vulnerability of fissile material 
are relevant today, and will be absolutely central among the 
criteria that we discuss in 2021 and afterwards.
    Third, in terms of the message for partners in East Asia or 
anywhere else is that decisions about E&R technologies, 
enrichment and reprocessing technologies, must be transparent, 
must be economically logical, and must be defensible on the 
basis of both the physical security and the safeguarding of 
such fissile material. And, yes, we do deliver that message in 
great detail in East Asia and elsewhere.
    Senator Markey. Okay. Well, I know that a group of 13 
nonproliferation experts sent Secretary Moniz a letter earlier 
this month saying that continuation of United States spent fuel 
recycling work through the MOX fuel program, the Mixed Oxide 
Program, ``helps plutonium recycling advocates in Japan, China, 
South Korea, and other states maintain the illusion that 
plutonium separation and recycling are activities that are 
responsible nonweapon state activities,'' that they can engage 
in. Have you seen that letter, Mr. Secretary?
    Mr. Countryman. Yes.
    Senator Markey. Are there opportunities from your 
perspective to ask all of our East Asian partners to defer 
commercial plutonium-based fuel activities?
    Mr. Countryman. I think that letter makes a number of valid 
points, and, yes, I look forward to discussing the concepts in 
that letter with partners in East Asia and beyond.
    Senator Markey. Honestly, I do believe this is a door-
opening historic moment that is very troubling to me. I think 
that the message that you send, in my opinion, is a very strong 
one to them that we are at the threshold of yet another 
potential arms race. We are still dealing with selling civilian 
nuclear power plants to Iran. We attacked Iraq because of 
civilian nuclear programs, again, that were dangerous. North 
Korea has a civilian nuclear facility that--you know, that had 
one guise, but it was turned into something else.
    So while you say it did not open--does not open the door to 
pyroprocessing because the decision was postponed, I do not 
think that we should for a minute think that the door is 
locked, you know. I do not think it is locked at all. I think 
we have to make sure it is locked. I think that is our 
responsibility as the global leader in nuclear 
nonproliferation, and I urge you very strongly to send that 
message when you are meeting with these countries around the 
world.
    Mr. Chairman, I thank you so much.
    The Chairman. Thank you. I, you know, understand sometimes 
media outlets are not always accurate. In fact, that happens 
many, many times, and I understand how administrations and 
others, you know, spin the media. I just want to read from 
the--my staff just handed me the Korea Herald. I have no idea 
whether it is a respectable media outlet or not. My sense is it 
may be. ``Korea Gains More Nuclear Leeway.'' This is a sub 
headline. ``Revised Pact Opens Door to Seoul's Rights of Low 
Enrichment and Reprocessing.''
    And I do not think there is anybody--I am sorry, Mr. 
Countryman--that does not believe that that is exactly what we 
have done, including all the negotiators on the South Korean 
side. So, look, I am disappointed. I voted for an agreement 
when I first came here that I should not have, and that was the 
India agreement.
    You know, this has been going on. This is not a partisan 
issue, you know. It happened at the end of the Bush 
administration. It has been hugely expanded upon by the Obama 
administration. I know for private companies there is a lot of 
money at stake here. I got that. A lot of these private 
companies, as we have learned in previous hearings and even in 
this particular case.
    I think the technology that South Korea plans to use is 
actually technology that ultimately through a subsidiary and 
then a holding company is owned by Japan, which is pretty 
fascinating. But in any event, you know, we see private 
interest, in my opinion, trumping national security interests 
on a constant basis, and it is disappointing.
    So I think we are probably going to have a meeting of this 
committee to see if there are steps we can take to try to stop 
that from happening. We thank you for your service. I do not 
know if you are going to be testifying before us. Are there any 
other agreements that include reprocessing and enrichment that 
you plan to bring before us between now and the end of the 
year?
    Mr. Countryman. No, sir. But if I could make two very quick 
comments. One is I appreciate, and I take very much to heart 
your statement that this not a partisan issue. I think there 
has been consistent strong support from administrations and 
Congresses of every political stripe for nonproliferation 
objectives. And I value that very much. And I have taken very 
careful note of all the comments and questions you have asked, 
and we will do our damndest to answer those in consultation 
with you and your staff as you have time.
    I do have to say on economic interests, at no point were 
economic interests primary in this negotiation. At no point did 
I get instructions from my leadership or from the White House 
to make this an economically good agreement for the United 
States or for U.S. companies. The only exception is that we 
agreed to an ROK request that one of the working groups of the 
bilateral commission specifically deal with commercial 
cooperation and issues such as export licensing from the U.S. 
side.
    I say this because I simply cannot agree in all the time I 
spent negotiating this that economic interests were at any 
point primary to non-proliferation interests.
    The Chairman. Actually in fairness, I would say in this 
particular agreement that the primary issue was the fact that 
all of their neighbors are able to do it. So I would agree with 
you. I would say that in many of our agreements I do think that 
commercial interest has driven it, and it is interesting. I 
support strongly the nuclear industry. I mean, I am a strong 
supporter of nuclear power. We have got 103 or four plants in 
our country today. I wish we had more.
    I think it is not appropriate in the name of 
commercialization for countries to be enabled, if you will, to 
have the full fuel cycle and be able to proliferate nuclear 
weapons. I just do not. But in this case, I agree. I think it 
was more of the fact that Japan has it, others have it in the 
region. And the fact that we continue to lower our guard, we 
let our enemies have it--Iran. And I just think over time the 
pressures continue to mount for us to lower our standard so 
that ``we are treating our friends at least as well as our 
enemies.''
    So with that, again, thank you for your service.
    The record will remain open until close of business 
tomorrow. I know you will answer promptly.
    And we look forward to seeing you again hopefully not on 
this type of subject. Thank you.
    Mr. Countryman. Thank you.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]
                              
                              
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Assistant Secretary Thomas M. Countryman to Questions 
                    Submitted by Senator Marco Rubio

    Question. Recently, the Chinese National Nuclear Corporation (CNNC) 
announced its intention to complete a deal with AREVA to build a plant 
capable of chemically separating 8 tons of plutonium--enough to fashion 
more than 1,500 inefficient nuclear weapons. CNNC also announced its 
desire to have this plant up and running by 2020 so that they could 
stockpile material for a large breeder that might come on line by 2040. 
This could result in China having a stockpile of plutonium capable of 
fueling 20,000 or more nuclear weapons.

  <diamond> What unique nuclear security challenges might these 
        activities as distinct from having a nuclear power system that 
        does not recycle plutonium pose for those trying to promote 
        nuclear security?
  <diamond> To promote nuclear security, would it not be better if 
        China chose not to proceed or to delay this effort?

    Answer. As China is a nuclear weapon state under the definition of 
the treaty on the Nonproliferation of Nuclear Weapons, it already 
possesses large quantities of indigenously produced highly enriched 
uranium and plutonium for its military programs. If China were to 
purchase and operate a commercial reprocessing facility, China would be 
responsible for maintaining it in accordance with its obligations under 
the amendment to the Convention on the Physical Protection of Nuclear 
Material upon its entry into force. Both China and the United States 
have ratified the amendment and its entry into force is likely to occur 
soon.
    In order for U.S. obligated material to be reprocessed at such a 
facility, the United States and China will also have to agree on a set 
of arrangements and procedures mandating the physical security and 
safeguards procedures to be in place at the facility. The United States 
and China also have recently agreed to launch a bilateral nuclear 
security dialogue to improve and make more transparent our respective 
nuclear security practices and to facilitate exchange of best 
practices.

    Question. Has the U.S. Government ever proposed an informal 
commercial plutonium recycling activity time out with Japan, South 
Korea, and China? Might it consider promoting such a time out in the 
lead up to the next nuclear security summit to be held next march in 
Washington?

    Answer. The United States has consistently sought to discourage the 
spread of enrichment and reprocessing technologies worldwide. We have 
made this position clear to our partners in East Asia.?

    Question. Since the conclusion of the Joint Comprehensive Plan of 
Action (JCPOA) with Iran on July 14, 2015, have any countries with a 
nuclear cooperation agreement with the United States indicated a desire 
to alter their current approach toward enrichment or reprocessing?

    Answer. The Department has responded under a separate coversheet.

    Question. Since July 14, 2015, has the United Arab Emirates raised 
any concerns regarding potential implications of the JCPOA for the 2009 
U.S-UAE nuclear cooperation agreement with Secretary Kerry or any other 
State Department official? If so, what concerns have been raised and 
when and how were they transmitted to the Department? Please provide a 
classified response if necessary.

    Answer. The Department has responded under a separate coversheet.

    Question. Does the JCPOA qualify as a ``peaceful nuclear 
cooperation agreement'' with ``any other nonnuclear weapon State in the 
Middle East'' under the ``Equal Terms and Condition for Cooperation'' 
clause of the 2009 U.S.-UAE nuclear cooperation agreement?

    Answer. No. The Joint Comprehensive Plan of Action is not an 
agreement for peaceful nuclear cooperation (a ``123 agreement'') in 
accordance with the Atomic Energy Act of 1954 or within the meaning of 
the Agreed Minute in the U.S.-UAE nuclear cooperation agreement--123 
agreements allow U.S. suppliers to export nuclear reactors and fuel to 
our partners. The JCPOA does not contemplate such U.S. exports. Rather, 
the JCPOA is a discrete set of measures to verifiably ensure that Iran 
does not acquire a nuclear weapon. It has no bearing on the terms of 
our existing 123 agreements.

    Question. Has the UAE requested that the United States provide the 
details of cooperation with Iran as outlined in the ``Equal Terms and 
Condition for Cooperation'' clause of the 2009 U.S.-UAE nuclear 
cooperation agreement?

    Answer. The United States has provided in-depth information to the 
United Arab Emirates on the details of the Joint Comprehensive Plan of 
Action (JCPOA), but those briefings were in context of our close and 
regular diplomatic engagement on Iran, not in the context of the U.S.-
UAE 123 Agreement.

    Question. Has the UAE requested that discussions begin regarding 
the possible amendment of the 2009 U.S.-UAE nuclear cooperation 
agreement as allowed under the ``Equal Terms and Condition for 
Cooperation?''

    Answer. The Department has responded under a separate coversheet.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
